APPENDIX

TABLE OF CONTENTS
Page
Appendix A: Alaska Supreme Court’s Order Denying
Petition for Hearing (Jan. 29, 2020) .............. 1a
Appendix B: Opinion of Court of Appeals of Alaska
(Oct. 23, 2019) ................................................. 3a
Appendix C: Trial Court’s Order Regarding Expert
Testimony (Sept. 19, 2016) ............................. 7a
Appendix D: Excerpt of Trial Court’s Judgment
(Oct. 11, 2016) ............................................... 12a
Appendix E: Certified Report of the Washington
State Patrol Toxicology Laboratory
(July 27, 2017) .............................................. 18a
Appendix F: Excerpt of Transcript of Proceedings
Before Trial Court ........................................ 23a

(i)

APPENDIX A
In the Supreme Court of the State of Alaska
Supreme Court No.
S-17653

Teresa Johnson,
Petitioner,

Order
Petition for Hearing

v.
State of Alaska,

Date of Order: 1/29/20

Respondent.
Court of Appeals No. A12744
Trial Court Case No. 3PA-16-01291CR
Before:

Bolger, Chief Justice, Winfree, Stowers,
Maassen, and Carney, Justices

On consideration of the Petition for Hearing filed
on 11/22/19, and the response filed on 1/9/20,
IT IS ORDERED: The Petition for Hearing is
DENIED.
Entered at the direction of the court.
Clerk of the Appellate Courts
[/s/ signed]
_
Meredith Montgomery

(1a)

2a
cc:

Supreme Court Justices
Court of Appeals Judges
Judge Gregory Heath
Central Staff

Distribution:
Mail:
Brandon Stone
Kirkland & Ellis Llp
Hari Santhanam
Kirkland & Ellis LLP
Michal Stryszak
Office of Criminal Appeals

APPENDIX B
NOTICE
This is a summary disposition issued under Alaska
Appellate Rule 214(a). Summary dispositions of this
Court do not create legal precedent and are not
available in a publicly accessible electronic database.
See Alaska Appellate Rule 214(d).
IN THE COURT OF APPEALS
OF THE STATE OF ALASKA

TERESA ANN
JOHNSON,

Court of Appeals No.
A12744

Appellant,

Trial Court No.
3PA-16-01291CR

v.

SUMMARY
DISPOSITION

STATE OF ALASKA,

No. 0084 —
October 23, 2019

Appellee.

Appeal from the Superior Court, Third Judicial
District, Palmer, Gregory Heath, Judge.
Appearances: Marilyn J. Kamm, Anchorage,
under contract with the Office of Public
Advocacy, for the Appellant. Michal Stryszak,
Assistant Attorney General, Office of Criminal
Appeals, Anchorage, and Jahna Lindemuth,
Attorney General, Juneau, for the Appellee.
(3a)

4a
Before: Allard, Chief Judge, Harbison, Judge,
and Mannheimer, Senior Judge. *
Teresa Ann Johnson appeals her conviction for
felony driving under the influence. At Johnson’s trial,
to prove that Johnson had ingested controlled
substances that impaired her ability to drive, the
State relied upon the testimony of Lisa Noble, a
toxicology supervisor and forensic analyst from the
Washington State Patrol Toxicology Laboratory.
Noble testified that, even though the testing of
Johnson’s blood was performed by other analysts in
the laboratory, Noble was the supervising analyst who
reviewed and evaluated all of the forensic testing in
Johnson’s case. With respect to each analyst’s test
results, it was Noble’s job to either reject those test
results or certify them as the official results of the
laboratory.
In Noble’s testimony, she described the test results
obtained by the other analysts, but Noble also
testified that she had reviewed those analysts’ work
and that she agreed with their test results.
In this appeal, Johnson contends that she was
denied her right of confrontation when Noble was
allowed to testify about the amount of the controlled
substances in Johnson’s blood. Johnson argues that,
because Noble did not perform the tests herself, she
should not have been allowed to testify about the
results of those tests — that, instead, the State should
have been required to present the testimony of the
analysts who personally ran those tests.
*

Sitting by assignment made pursuant to Article IV, Section 11
of the Alaska Constitution and Administrative Rule 23(a).

5a
But as we have already noted, Noble was the
supervising analyst, and she was responsible for
certifying the laboratory’s assessment of Johnson’s
blood. As part of this responsibility, Noble was
expected to review the other analysts’ work, and to
either certify or reject their test results. Noble
testified that, after reviewing the testing data, she
reached her own independent conclusion that the test
results were accurate, and she therefore certified
those results.
Given this record, our resolution of Johnson’s case
is governed by our recent decision in Robbins v. State,
__ P.3d __, 2019 WL 3980157 (Alaska App. 2019).
In Robbins, we confronted another situation where
the forensic analyst responsible for a defendant’s case
testified about the test results obtained by a second
analyst (working at the same laboratory) who
performed portions of the testing under the first
analyst’s supervision. We held that this testimony did
not violate the confrontation clause:
Gingras testified that he was the forensic
analyst who was personally assigned to Robbins’s
case. Gingras explained that, even though Lowe
conducted certain aspects of the testing (i.e., the
testing to determine the precise level of [the drug]
in Robbins’s blood), Lowe’s test results were
forwarded to Gingras, and Gingras was
responsible for reviewing those test results and
certifying them ... as the official test results
obtained by the Toxicology Laboratory.
Given these circumstances, we conclude that
Gingras could properly testify regarding the
results of the [drug] testing performed by Lowe.
Robbins, 2019 WL 3980157 at *5.

6a
Applying our holding in Robbins to the facts of
Johnson’s case, we conclude that Noble’s testimony
did not violate Johnson’s right of confrontation.
The judgment of the superior court is AFFIRMED.

APPENDIX C
IN THE SUPERIOR COURT
FOR THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT AT PALMER

STATE OF ALASKA,
Plaintiff,

FILED in the TRIAL
COURTS
State of Alaska, Third
District at Palmer Alaska
SEP 19 2016

v.
TERESA ANN
JOHNSON,

Clerk of the Trial Courts
By [/s/] Deputy
Case No. 3PA-16-0129CR

Defendant.
ORDER REGARDING EXPERT TESTIMONY
The State is seeking to introduce the testimony of
Washington Laboratory Forensic Toxicologist Lisa
Noble. Johnson objected on the record on September
14, 2016, and September 16, 2016. On September 16,
2016, the Court ordered the parties to brief the issue
by noon on September 19, 2016. The State of Alaska
filed a Motion Regarding Expert Testimony the
morning of September 19, 2016. Johnson filed
Defendant’s Brief Regarding Admissibility of Lisa
Noble’s Testimony about the Lab Results on
September 19, 2016. After reviewing the briefings,
(7a)

8a
the Court finds that Lisa Noble’s testimony is
admissible if the State lays the necessary foundation.
I. Facts
On May 28, 2016, Teresa Johnson was arrested for
DUI and MIW4. Wasilla Police Officer Lopez applied
for and was granted a search warrant to seize four
vials of Teresa Johnson’s blood for testing. On July
27, 2016, testing completed by the Washington Crime
Lab showed that a variety of controlled substances in
Johnson’s blood. The testing was done by three
different analysts at the Washington State Toxicology
Lab and involved a Liquid Chromatography/Mass
Spectrometry, a Liquid Chromatography/Tandem
Mass Spectrometry, and a Gas Chromatography/Mass
Spectrometry.
Amanda Chandler signed off on the laboratory
report and certified as follows:
Unless indicated otherwise, I performed all
testing reported above for the submitted evidence.
The document on which this certification appears
is a true and complete copy of my official report
and I have technically reviewed all relevant pages
of testing documentation in the case record. The
tests were administered according to testing
methods approved by the state toxicologist
pursuant to WAC 448-14-010, -020,-030 and/or
RCW 46.61.506(3) by an analyst possessing a
valid permit issued by the state toxicologist.
Lisa Noble also signed the laboratory report
indicating that she reviewed the findings in her
supervisory capacity and agreed with them.

9a
II. Applicable Law
The Sixth Amendment’s Confrontation Clause,
U.S. Const. amend. VI, requires that a criminal
defendant be confronted with the witnesses against
him. “Testimonial statements of witnesses absent
from trial have been admitted only where the
declarant is unavailable, and only where the
defendant has had a prior opportunity to crossexamine.” Crawford v. Washington, 124 S. Ct. 1354,
1369 (2004). In Melendez-Diaz v. Massachusetts, 129
S.Ct. 2527, 2532 (2009), the Supreme Court decided
that forensic lab reports are “testimonial” and
therefore trigger the defendant’s confrontation rights.
After the Melendez-Diaz decision, the Alaska Court of
Appeals held in Vann v. State, 229 P.3d 197, 210
(Alaska Ct. App. 2010), that expert testimony based
in part on test data obtained from other people, but
that offers independent analysis by the testifying
witness, is consistent with the Confrontation Clause.
Shortly thereafter, the Supreme Court decided
Bullcoming v. New Mexico, 131 S.Ct. 2075 (2011), and
held that scientific reports could not be used as
substantive evidence against a defendant, unless the
analyst who prepared and certified the report was
subject to confrontation. Id. Justice Sotomayor, in
her concurrence, limited the reach of the majority
opinion by proposing four scenarios in which courts
may allow expert testimony from a witness in a
supervisory role. Id. Justice Sotomayor specifically
noted that Bullcoming was “not a case in which the
person testifying is a supervisor, reviewer, or someone
else with a personal, albeit limited, connection to the
scientific test at issue.” Bullcoming v. New Mexico,
131 S. Ct. 2705, 2722 (2011) (emphasis added).

10a
Johnson argues that Bullcoming overruled Vann.
However, the most recent Supreme Court decision in
this area, Williams v. Illinois, 132 S. Ct. 2221 (2012),
is consistent with the approach taken in Vann. 1 In
Williams, the Court dealt with the problem of an
expert witness’s reliance on data generated by
someone else’s testing. The expert witness relied on
the results of DNA testing performed by another
laboratory when the expert evaluated whether the
defendant’s DNA matched a DNA sample obtained
from inside the victim’s body. The Court found no
violation of the confrontation clause.
III. Assuming the Appropriate Foundation is Laid,
Lisa Noble’s Testimony is Admissible
Lisa Noble’s testimony will be admitted assuming
the State lays the appropriate foundation. The State
must show that Lisa Noble independently reviewed
the test results and drew conclusions from the
underlying data. Her analysis must involve a process
of searching for any errors in the test results or
calibration and control processes of the machines used
during testing.
Unlike the proposed expert in
Bullcoming, Lisa Noble will need to be able to “expose
any lapses or lies.” Lisa Noble will only be able to
testify to facts in which she has independent
knowledge, but the defense should not be limited in
the scope of their cross-examination of Lisa Noble and
the data relied on in forming the report and reaching
1

In a recent memorandum decision, which is not binding
authority, the Alaska Court of Appeals “interpret[ed] Williams
as being at least consistent with the approach that this Court
took in Vann.” McCarty v. State, 2016 WL 2610657 (Alaska App.
2016).

11a
her particular conclusions even though she did not
physically perform the test itself.
Blood tests are admittedly different from the DNA
comparisons discussed in Vann and Williams, but
Johnson’s Sixth Amendment rights will not be
violated if Lisa Noble is able to provide independent
review and analysis of the results.
IT IS HEREBY ORDERED that the State’s Motion
Regarding Expert Testimony is GRANTED, subject to
the appropriate foundation.
Dated at Palmer, Alaska this 19_ of September
2016,

[/s/ signed]
_
Gregory L. Heath
Superior Court Judge
I certify that on 9/19/16_
a copy of this document was sent to
  Deft/Atty  DA  DPS  AGO
 MSASP/AASAP
 DMV  FWP
 MSPT
 Anch Jail  Other
Deputy Clerk
[/s/]
_

APPENDIX D
IN THE SUPERIOR COURT
FOR THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT AT PALMER

State of Alaska,
Plaintiff,
v.
Teresa Ann Johnson,
Defendant.
DOB: [redacted]
ASPIN: [redacted]
DL/ID: [redacted]

CASE NO. 3PA-16-0129CR
AMENDED JUDGMENT
AND ORDER OF
COMMITMENT/
PROBATION FELONY
DUI OR REFUSAL

ATN: [redacted]
ST: AK  CDL

Plea Agreement:  Yes  No  Partial
Trial:  Court  Jury
The defendant came before this court on October 11,
2016 with defense counsel, Hannah Thorssin-Bahri,
and the assistant district attorney, Shawn Traini
present.
Defendant has been convicted of the following offenses
upon defendant’s plea of:
 guilty  not guilty  no contest
CTN: Offense
Date:

Offense

Class

DV Offense per
AS 18.66.990(3), (5)

(Yes or No)
001 05/28/2016 AS28.35.030(n):
Felony DUI 2+ Priors

(12a)

C
Felony

No

13a
The following charges were dismissed:
CTN:

Offense Date:

Offense:

SENTENCE
INCARCERATION
It is ordered that the defendant is committed to the
care and custody of the Commissioner of the
Department of Corrections for the following period(s):
CTN Period
001

Sixteen (16) months with twelve (12) months
suspended. The defendant shall remand to
Mat-Su Pretrial Facility on January 10, 2017
at 7:30 am to serve the unsuspended four (4)
months.

Total unsuspended term of incarceration: four (4)
months
The defendant to be credited for time already served
in this case.
 Under AS 33.16.090(a)(2) and AS 12.55.115, the
defendant is not eligible to be considered for
discretionary parole until the defendant has:
 served the following term: ___________________
 completed the following conditions: __________

14a
FINE AND OTHER COSTS
The defendant shall pay the following fine and costs:
 FINE.
001 Defendant is fined $10,000.00 with $0.00
suspended. The unsuspended $10,000.00
shall be paid by October 11, 2018.
 safety corridor  hwy work zone
 POLICE TRAINING SURCHARGE
The defendant shall pay a police training surcharge
pursuant to AS 12.55.039 within 10 days:
 $100 (Felony)  $75 (DUI/Refusal)
 $50 (Misd)

 $10 (lnf/Viol)  $0 (None)

 INITIAL JAIL SURCHARGE.
The defendant was arrested and taken to a
correctional facility or is being ordered to serve a
term of incarceration. Therefore, defendant shall
immediately pay a correctional facility surcharge
of $100 per case to the Department of Law
Collections Unit, 1031 West 4th Avenue, Suite 200,
Anchorage, AK 99501. [AS 12.55.041(b)(l)]
 SUSPENDED JAIL SURCHARGE
The defendant is being placed on probation.
Therefore, defendant shall pay an additional $100
correctional facility surcharge. This surcharge is
suspended and must only be paid if defendant’s
probation is revoked and, in connection with the
revocation, defendant is arrested and taken to a
correctional facility or incarceration is ordered
served. [AS 12.55.04l(c)]

15a
 RESTITUTION
The defendant shall pay restitution as stated in
the Restitution Judgment. Defendant shall apply
for an Alaska Permanent Fund Dividend every
year that defendant is a resident eligible for a
Dividend until the restitution is paid in full.
* * *
LICENSE AND FORFEITURE ACTIONS
 The defendant’s driver’s license is permanently
revoked and may only be restored pursuant to the
conditions in AS 28.35.030(0).
[AS 28.35.030(n)(3)]
 The defendant is disqualified from driving a
commercial vehicle for life, subject to
reinstatement under AS 28.33.140(g)-(h).
[AS 28.33.140(e)]
 The defendant’s interest in the vehicle,
watercraft, or aircraft used in the commission of
the offense is forfeited.
A forfeiture hearing is scheduled for
December 9, 2016 at 8:30 am in Courtroom 4,
Palmer Courthouse 435 S. Denali St, Palmer
AK 99645
ID# (VIN, HIN, SN) of vehicle used in offense
_[redacted]_
Make Kia

Model

Year 2002

 The Division of Motor Vehicles (DMV) shall
revoke the registration of all vehicles registered in
defendant’s name. For every vehicle registered in
defendant’s name as co-owner or as co-owner

16a
under a business name, the DMV shall reissue
vehicle registration and omit defendant’s name.
[AS 28.35.030(n)(6)]
 Within 10 days, defendant shall submit an
Affidavit of Vehicle Ownership to the DMV
Registrar at 1300 W. Benson Blvd., Suite 900,
Anchorage, AK 99503.
 IGNITION INTERLOCK DEVICE
After defendant regains the privilege to drive or
obtains a limited license, defendant must use an
ignition interlock device as directed in the IID
Information Sheet (CR-483) for ___ months.
[AS 28.35.030(n)(1)]
 Commercial vehicle used in the offense
 Weighing more than 26,000 pounds
 Designed to transport > 15 passengers
 Used to transport hazardous materials
OTHER ORDERS
It is also ordered:
 DNA IDENTIFICATION
The defendant shall provide samples for the DNA
registration system when requested to do so by a
health care professional acting on behalf of the
state and provide oral samples for the DNA
registration system when requested by a
correctional, probation, parole or peace officer.
[AS 12.55.015(h); AS 44.41.035.]

17a
PROBATION
 The defendant is placed on probation for two (2)
years under the following conditions:
* * *
[10/29/16]
Date Signed

[/s/ signed]
_
Superior Court Judge

October 11, 2016
Date Effective

Gregory L Heath
Type or Print Name

EGriffeth
Clerk

_
* * *

_

APPENDIX E
TOXICOLOGY LABORATORY
WASHINGTON STATE PATROL
2203 Airport Way South Suite 360
Seattle, WA 98134
(206) 292-8100 FAX No. (206) 262-8145
TOXICOLOGY TEST REPORT

Attention: Toxicology Section
Agency:

State of Alaska Crime Lab

Address:

4805 Dr MLK Jr Ave
Anchorage, AK 99507-1275

Tox Case #: ST-16-06645

Case Type: DUI

Report Date: 7/27/2016
Agency Case #: 16-02435 16-1032
Subject Name: Teresa A. Johnson
Evidence: The following evidence was submitted to
the Laboratory by Nikki Roth of the State of Alaska
Crime Lab on 6/15/2016 via Fed Ex:
(1) ST-16-06645-A: VGray, Blood - Peripheral

(18a)

19a
Drug Analysis Results:
ST-16-06645-A: Blood - Peripheral
ST-16-06645-A was tested by Enzyme Multiplied
Immunoassay Technique (EMIT for the presence of
amphetamines, barbiturates, benzodiazepines,
cocaine metabolite. methadone, opiates,
phencyclidine (PCP), and tricyclic antidepressants
on 08/17/2016. The following result(s)-was obtained:
Presumptive positive for benzodiazepines
and methadone
ST-16-06645-A was tested by Gas Chromatography/
Mass Spectrometry for basic drugs and metabolites
on 06/20/2016. The following result(s) was obtained:
Alprazolam

positive

Diazepam

positive

Diphenhydramine positive
Methadone

positive

Nordiazepam

positive

Oxycodone

positive

Tapentadol

positive

PLAINTIFF
Exhibit No. 4_
Admitted 
3PA-16-0129 _
(Case Number)

20a
ST-16-06645-A was tested by Liquid
Chromatography/Mass Spectrometry on 06/21/2016.
The following result(s) was obtained:
Methadone

0.44 mg/L

(test conducted by Christie Mitchell-Mata,
Forensic Scientist 3)
ST-16-06645-A was tested by Gas Chromatography/
Mass Spectrometry for diphenhydramine on
06/2312016. The following result(s) was obtained:
Diphenhydramine

0.059 mg/L

(test conducted by Justin Knoy, Forensic
Scientist 3)
ST-16-06645-A was tested by Liquid
Chromatography/Tandem Mass Spectrometry for
benzodiazepines, quetiapine, and zopiclone on
06/23/2016. The following result(s) was obtained:
7-aminoclonazepam

positive

Alprazolam

0.065 mg/L

Clonazepam

0.025 mg/L

Diazepam

0.016 mg/L

Nordiazepam

0.080 mg/L

21a
ST-16-06645-A was tested by Liquid
Chromatography/Tandem Mass Spectrometry for
cannabinoids on 06/23/2016. The following result(s)
was obtained:
None detected

ST-16-06645-A was tested by Liquid
Chromatography/Tandem Mass Spectrometry for
opiates on 06/23/2016. The following result(s) was
obtained:
Oxycodone

0.049 mg/L

(test conducted by Christie Mitchell-Mata,
Forensic Scientist 3)
ST-16-06645-A was tested by Gas Chromatography/
Mass Spectrometry for Tapentadol on 07/14/2016.
The following result(s) was obtained:
Tapentadol

positive

22a
COMMENTS
Amanda Chandler, MS certifies under penalty of
perjury under the laws of the State of Washington
that the foregoing is true and correct: Unless
indicated otherwise, I performed all testing
reported above, for the submitted evidence. The
document on which this certification appears is a
true and complete copy of my official report and I
have technically reviewed all relevant pages of
testing documentation in the case record. The
tests were administered according to testing
methods approved by the state toxicologist
pursuant to WAC 448-14-010, -020, -030 and/or
RCW 46.61.506(3) by an analyst possessing a
valid permit issued by the state toxicologist.
Examined by:

Reviewed by:

[/s/ Amanda Chandler]
Amanda Chandler, MS

[/s/ Lisa Noble]
Reviewer:

Forensic Scientist 3

Date: 7 / 28 / 16 _

Executed this 27th day of July , 2016
at Seattle, Washington

_

APPENDIX F
IN THE SUPERIOR COURT FOR APPEALS
OF THE STATE OF ALASKA
THIRD JUDICIAL DISTRICT

STATE OF ALASKA,
Plaintiff,
v.
TERESA ANN
JOHNSON,
Defendant.
No. 3PA-16-01291 CR
*

*

*

[*3] STATUS HEARING
BEFORE THE HONORABLE GREGORY HEATH
SUPERIOR COURT JUDGE
Palmer, Alaska
September 14, 2016
11:17 a.m.
APPEARANCES:
FOR THE PLAINTIFF:

SHAWN TRAINI
District Attorney’s Office
515 East Dahlia Street
Suite 150
Palmer, Alaska 99645
(23a)

24a
FOR THE DEFENDANT: HANNAH THORRSINBAHRI
Public Defender’s Office
515 East Dahlia Street
Suite 100
Palmer, Alaska 99645
*

*

*

[*4] THE COURT: So where are we at with the
trial?
MS. THORRSIN-BAHRI: We are ready for trial.
THE COURT: Okay. Mr. Traini.
MR. TRAINI: Your Honor, here’s kind of where
we’re at. We have a crime lab person in Washington THE COURT: Okay.
MR. TRAINI: -- that had some childcare issues. I
don’t know if I can get her up for next week.
THE COURT: All right.
MR. TRAINI: There is another analyst that
reviewed her findings. I could probably get her up for
Monday or Tuesday. I filed an amended notice
specifically listing her as soon as I learned of the
childcare issues, Your Honor.
THE COURT: Okay.
MR. TRAINI: Her name was still on the report and
so defense has had her name for a while. I could
probably get her up Monday or Tuesday. You know,
what I would ask is, you know, that we just set a trial
status.

25a
THE COURT: Friday?
MR. TRAINI: Friday.
THE COURT: All right.
MR. TRAINI: And I’ll see if I can get the other
person up. And as long as I can get her up, we’ll be
good to go.
THE COURT: Okay.
MS. THORRSIN-BAHRI: And who -- I guess I’m
unclear, I mean, the defense has a right to crossexamine the person that tested the blood. And so if
the state is saying that they are going to call somebody
other than that person, the defense objects and the
state’s required to bring up the person who tested the
blood.
[*6] MR. TRAINI: That’s actually -MS. THORRSIN-BAHRI: It’s a confrontational
clause issue.
MR. TRAINI: That’s actually not a confrontation
clause, Your Honor, because theoretically and
realistically no one actually tests the blood. What
actually tests the blood is the instrument, Your
Honor, and there is case law, and this has been well
documented and well thought out. There is one
personal that generally reviews it, and that person
was Amanda Chandler, but then their findings are
also reviewed by another person who makes an
independent conclusion as to those findings. And that
has been well satisfied to satisfy the confrontational
clause. That person in this case would be Lisa Noble.
And this is not a new area of law and it’s well settled.
(Whispered conversation)
THE COURT: Okay.

26a
MS. THORRSIN-BAHRI: And Your
Bullcoming, I think, is the recent case.

Honor,

MR. TRAINI: This is all post Bullcoming. Defense
attorneys and public defenders have litigated this and
lost in this jurisdiction.
MS. THORRSIN-BAHRI: And the state talks
about a machine, but, I mean, there’s a person that is
inputting the information or whatever needs to be
done with the machine. We have a right to crossexamine this person. Having somebody else say, well,
[*7] I don’t know where the blood was put, I don’t
know where we took it from, is not sufficient -THE COURT: Well, here’s what we’ll do, is we’ll -MS. THORRSIN-BAHRI:
confrontational clause.

--

to

satisfy

the

THE COURT: -- put it on for a status on Friday. I
need the defendant here. She needs to be physically
present in court.
*

*

*

27a
[*11] STATUS HEARING, CONTINUED
BEFORE THE HONORABLE GREGORY HEATH
SUPERIOR COURT JUDGE
Palmer, Alaska
September 16, 2016
11:25 a.m.
*

*

*

[*12] MS. THORRSIN-BAHRI: And so I think the
issue was who is going to be coming up from the -MR. TRAINI: And the state’s going to be -MS. THORRSIN-BAHRI: -- crime lab.
MR. TRAINI: -- calling Lisa Noble.
reviewer on the lab report, Your Honor.

She is a

THE COURT: Okay.
MR. TRAINI: She’s the supervisor who reviewed
the data that Amanda Chandler -- or that, you know,
on the report.
THE COURT: Well, what I’m going to ask the
parties to do [*13] is that at least by Monday
afternoon, I’m going to need briefing if you’re going to
oppose the expert testifying.
MS. THORRSIN-BAHRI: And we will. I mean, the
defense -THE COURT: But I need to know exactly how it’s
factually set up down there, you know, who’s doing the
test, what the test is, what’s her position in the lab,
all those factual bases, so I can track all that. So I’m
going to need something by noon Monday to make a
decision before she comes up to testify.

28a
*

*

*

[*43] TRIAL BY JURY, CONTINUED (EXCERPT)
BEFORE THE HONORABLE GREGORY HEATH
SUPERIOR COURT JUDGE
Palmer, Alaska
September 20, 2016
11:09 a.m.
*

*

*

[*54] MS. THORRSIN-BAHRI: And Your Honor, I
just want to state for the record that the defense
maintains its objection to calling Ms. Noble or any
other person besides the people that actually
performed the test. We are not waiving our objection.
THE COURT: That is fair enough. I will note that
for the record. Okay. Go ahead, Mr. Traini.
*

*

*

[TESTIMONY OF LISA NOBLE]
[*55] DIRECT EXAMINATION
THE CLERK: You may be seated. Could you
please state and spell your name for the record?
A

Lisa Noble. N-o-b-l-e.
THE CLERK: And your first name?

A

L-i-s-a.
THE CLERK: Okay. And your occupation?

A

I’m a forensic toxicology supervisor at the
Washington State Patrol Toxicology Laboratory.
*

*

*

29a
BY MR. TRAINI:
Q

Ms. Noble, how long have you worked at the
crime lab? [*56]

A

Just over 10 years.

Q

And what education have you received to allow
you to get this job?

A

I have a bachelor of science degree in
biochemistry and a minor in chemistry from the
University of Washington.

Q

And you indicated you’ve worked at the crime lab
for 10 years?

A

Yes.

Q

And what are your duties -- or what have your
duties been there?

A

When I first started, I was an analyst, so that
would be working in the laboratory, processing
samples. And in 2013, I became a supervisor, so
now my duties mainly consist of reviewing
scientist data and checking for any errors,
looking through the data, so that we can send out
case reports.

Q

Now tell us a little bit about the Washington
state crime lab.

A

The Washington State Patrol Toxicology
Laboratory. We have only one tox lab in the state
of Washington and we process all of the DUI,
death investigation or sexual assault samples for
the presence of drugs and alcohol. We also are a
contract laboratory for the states of Alaska and
Oregon, so we do the drug testing for those two
states as well. [*57]

Q

And this lab is accredited?

30a
A

Yes, we are. We have two accreditations, one
from ABFT, which stands for American Board of
Forensic Toxicology, and the other is from
ASCLD LAB, which is American Society of Crime
Laboratory Directors, Laboratory Accreditation
Board.

Q

Okay. Now in addition to your bachelors degree,
you said, in biochem or chemistry --

A

Biochemistry and a minor in chemistry.

Q

A minor in chemistry. What additional training
have you received?

A

When you start at the toxicology laboratory, the
first year is spent in training. So before you can
start processing case samples, you’re not only
learning all of the methodologies that are in the
laboratory, but also learning a lot about the
effects of drugs and alcohol. We get to go to
several different external trainings, two of which
are at the University of Indiana, and they are
each one week long. One is about the effects of
alcohol on the human body and the second is
about the effects of drugs. We also get to go to -so drug recognition experts are police officers
that are specially trained to recognize the effects
of drugs in individuals. When they are being
tested to become a DRE, they bring individuals
off of the street that are using drugs and they
offer them a free [*58] meal in exchange to be
doing some field sobriety tests and other tests on
them. So we get to witness that, so we get to see
what different individuals look like with
different drugs in their system.

31a
Q

And additionally, you’ve had other training even
beyond that? There’s numerous courses you’ve
been to throughout your --

A

Yes.

Q

Okay. Now you mentioned that the Washington
crime lab is a contract lab for Alaska?

A

That’s correct.

Q

Okay. And specifically, Washington tests -- I
mean, how does that contract work and what’s
Washington’s role in there?

A

Alaska sends us up to 550 cases a year as part of
the contract and we process those samples for the
presence of drugs. They are either drivingunder-the-influence cases or fatality accidents
that are involved with traffic information.

Q

And Alaska’s not able to do that at their
laboratory?

A

Correct.

Q

Okay. Now so if someone gets stopped for a DUI,
a sample of their blood is taken. That’s sent to
the Alaska crime lab. And then what takes
place?

A

If the sample is needing drug testing, then the
Alaska [*59] crime laboratory will ship it to the
Washington State Patrol Toxicology Laboratory.

Q

And what happens once that blood is received at
the Washington state crime laboratory?

A

We have two property and evidence custodians
currently and their job is to intake evidence from
all of the agencies, whether it comes via FedEx
or UPS or mail or hand delivery, and they will
accession those samples into our laboratory and

32a
assign them each their own unique case number.
And then the cases are assigned to one of our 14
analysts in batches of 40. So they get 40 cases at
a time on a rotation basis and then they can
begin testing those samples.
Q

You indicated they get 40 cases at a time. How
many cases does each analyst get a year?

A

Well, this year -- we’re already at 10,000 cases for
this year, so it’s going to probably end up being
about 12 hundred to 13 hundred cases per
analyst.

Q

So 13 hundred cases a year?

A

Approximately, yes.

Q

Approximately. So after the blood is, you know,
the blood sample’s assigned to a specific analyst,
what do they do?

A

Depending on the type of testing -- if it were a
Washington case, we would start with blood
alcohol testing. Alaska does not contract with us
to do blood [*60] alcohol testing.
It’s my
understanding they do that themselves. So with
an Alaska case, we would start with a drug
screen and this screen is going to give us an idea
of several classes of compounds, whether those
might be present. So it won’t say which drug or
how much, just sort of a preliminary direction in
which way we should start our testing.

Q

What are the classes of drugs that you’re talking
about here?

A

There are nine. I’m not sure I can name them all,
but I’ll try. It’s cocaine and metabolites, opiates,
benzodiazepines, barbiturates, cannabinoids,

33a
Methadone, PCP, tricyclic antidepressants. And
I’m missing one, but I can’t recall it.
Q

But these are just the classes of drugs?

A

Yes.

Q

And so it’s kind of like a broad test?

A

Correct.

Q

And then once you get a result on this broad test,
what do you do then?

A

Depending on the results of that and/or
depending on what was written on the
submission form, we would move on to what’s
called a basis drug screen. This is a different
type of test where we can now detect what
specific compounds are there. It won’t tell us how
much yet. This [*61] is just a screen to tell us
specific compounds that might be present. And
this includes several hundred drugs, most of
them either prescription or illicit medications.

Q

And are there various instruments that do this
testing, then, or how are you able to, you know,
find this information out?

A

That particular test is done on what we call a gas
chromatography mass spectrometer.
So
basically, it’s -- we extract the blood so that we
-- we don’t want to inject blood on the instrument,
so we need to get it down into a small extract in
the solvent. That’s extracted on the instrument
and ran on the instrument, and it can separate
out different compounds that are detected. And
then as they hit a detector at the end of this long,
thin column, they’re bombarded with electrons
and it breaks these molecules up into small
pieces. And every drug predictability breaks up

34a
into the same size fragments every time. So
we’re collecting those fragments and looking at
the pattern of the masses of those fragments.
And it’s sort of like a fingerprint. So if we see a
certain fragmentation pattern, then we can
compare that to a library of known standards and
determine what drug is causing that
fragmentation pattern.
Q

You said a library of known standards. What is
that exactly? [*62] So it’s a library. This one is
from the AAFS, which is American Academy of
Forensic Sciences. So they use NIST traceable
standards and do the same process repeatedly
with information -- they know what they’re
putting in the instrument. And then they can
get that fragmentation pattern out. So we have
that as a library that we can compare the
unknown against.

Q

Okay. So you have -- what you know is -- for
example, Methadone, you know what that
fragment or that fingerprint is of that drug?

A

Correct.

Q

And then you’re looking to see if the fingerprint
and the data that the instrument produces
matches that fingerprint?

A

That’s correct.

Q

Okay. And you said that’s using -- you said the
gas --

A

Yeah, gas chromatography mass spectrometry.

Q

Okay. And there’s some other instruments that
are used as well?

A

Yes.

35a
Q

And what are those?

A

We have other confirmatory instruments. So the
GCMS we use for the screen that we just talked
about to determine what drugs are there, and
then we use some other methodologies to -- to
quantitate or determine how much of [*63] a
certain drug is present. We use these other
methodologies because they might be more
sensitive, so we can see down to lower levels.
And we would use either liquid chromatography,
mass spectrometry, or liquid chromatography
tandem mass spectrometry. So that’s just -- it’s
got two of those mass spectrometers that’s
bombarding electrons. So the first one to break
it up into pieces, the second one breaks it up into
smaller pieces so we can fine-tune that
fingerprint that we’re looking at.

Q

Now these instruments,
development?

A

No, they’ve been around for quite some time.
Most laboratories use the LCMSMS for most of
their testing in the toxicology room.

Q

In fact, you previously have testified about this
in other cases?

A

Yes.

Q

How many times, roughly?

A

Probably 200 or so times that I’ve testified.

Q

Okay. Now so you were at -- I think you said it
was the GCMS, the gas chromatography mass
spectrometry.

A

Correct, yes.

are

they a new

36a
Q

Okay. So that does that initial -- the second
screening. And then you did the other results
-- or the other test to see how much quantitative
there is? [*64]

A

Correct.

Q

Okay. And what do these instruments do that
allows you -- I mean, how is the data outputted?

A

The data is collected electronically, so all of the
instruments have electronic integrators. But the
data gets printed out onto pieces of paper, so we
have software that can analyze the data and it’s
actually using some mathematical calculations
to calculate the area under a peak. So when you
have those little electrons that are bombarded
and hitting the detector, it’s creating a signal,
and the signal looks like a small bell curve. So
basically the instrument is recording that signal
rise and then calculating the area underneath
that peak. We can use that to help us determine
how much might be present by injecting a known
amount of the standards that we’re looking at,
and looking at those peak areas and comparing
the unknown to the known to create a calibration
curve.

Q

And can you explain what quality controls or
safeguards you have in place?

A

Sure. Each of our tests that we have, we have
standard operating procedures for, so there’s
clear direction to the analyst on how they are to
do the test and also what criteria must be met for
the results to be acceptable and reportable. So
we have those. And then also when the analyst
is completed with their testing and they do their
[*65] analysis and print out their paper, part of

37a
our accreditation is that they thoroughly review
their own work to make sure that it meets all the
SOP’s and the criteria. And they have to initial
every page to show that they’re looking at every
page and that the criteria are met on every page
of the data they produce. They would then
submit that batch to either the supervisors or the
laboratory manager, and we would do a complete
batch review. So all of the injections that they
had for that run, we’re doing the same thing.
We’re looking at -- looking at the data. We know
our standard operating procedures and what
criteria have to be met. And then we, as the
supervisors that are reviewing that data, would
initial and date every page to show that we have
looked at this data and accept this data. And
then if there was anything wrong, if there’s any
restrictions on reporting, those are all notated on
a work list and this work list has a list of all the
samples that were ran in that batch. There are
bar codes on the tubes, so they scan the bar codes
to show which samples they ran. And then we
write on there whether everything passes or not.
We keep track of quality control, so we do have
both positive and negative controls. Negative
controls would be samples that we purposely run
that we know are negative. We use just blank
blood from a blood bank that we test to make
[*66] sure it’s drug-free. So we want to make
sure the extraction’s working properly, but that
we can accurately detect cases that are free of
drugs. And then we also have positive controls
where we put a known amount of the drugs of
interest into that same blank blood and extract it
right alongside all of our unknown samples. So

38a
we know the target concentration of those
controls and we run them at different levels
throughout the run. So those controls have to
meet within a 20 percent criteria of the value
we’re looking for in order to report the unknowns.
Q

And again, you review all of this as part of your
job as a supervisor?

A

Yes, I do.

Q

Okay. And do you create your own independent
conclusion regarding this data?

A

Yes, we do.

Q

Okay. Now specifically, did the Washington
crime lab receive a blood sample concerning
Teresa Johnson?

A

Yes, we did.

Q

And are you familiar with that case?

A

Yes, I am.

Q

And how are you familiar with that case?

A

I was the final reviewer of the case report before
it left our laboratory, so my signature is on the
report as the reviewer. [*67]

Q

Okay. So what was your involvement in this case
then? Can you explain to the jury what your role
is and what you did?

A

Sure. So after all of the testing has been
completed by the analyst or other analysts -sometimes we batch-test, so analysts might do
testing for one another to save time and
resources. After all the testing’s been completed
for a batch, that primary analyst will prepare a
report. They’ll put the report in the case file, and

39a
that case file is going to contain all of that data
that was printed out from the instruments that
already have their initials on it, already has a
supervisor’s initials on it. The batch reviews
have already been done and the data’s been
accepted, but now it’s all collected from all of the
different tests that are done into one place. Then
that file’s put up for review. And so again, a
supervisor or the laboratory manager or the state
toxicologist, we all have authorization to review
final case reports. So then we will pull case files
down and look through them to make sure, again,
that everything meets criteria, everything’s been
signed off on. There are calibration curves that
are included in there, so we’re looking to make
sure those are accurate. And then also looking at
administrative things as well, like did they
transfer the correct number from one place to
another, is the name spelled correctly, [*68]
agency case number, et cetera. And then once
I’ve determined that I’ve accepted all the data in
the file, I will sign alongside her name. So the
primary analyst has already signed the report
and I will sign as the reviewer. And at that point,
the report can leave the laboratory to go to the
agency.
Q

So a toxicology report cannot leave until this final
step has been done?

A

Correct.

Q

And would you, as part of your, you know, review,
would you be able to catch any errors or any
mistakes or anything like that, that have been
done in the case?

40a
A

Yes. So if any errors are found either in the
numbers or additional testing is needed, or
something didn’t meet reporting criteria, then I
would return the report to the analyst and let
them know what further follow-up is needed.
And then they can make those changes or
perform additional testing as necessary and resubmit that folder to the same reviewer that
returned it to them so that we can track that
process and make sure that everything that you
requested to be fixed is fixed before the final
report is then released.

Q

And again, you’re reviewing the same data that
the analyst who tested the blood would have
reviewed?

A

Correct. [*69]

Q

And when I say the analyst who tested the blood,
I mean, let’s just be clear here. Is the analyst
going under a microscope and trying to
determine what’s in this blood or is that what the
instrument’s doing?

A

Yeah, there’s no microscopes involved. They are
removing some blood samples into other tubes
and then following the standard operating
procedure, kind of like a recipe, add these
solvents, do this, do that, centrifuge, transfer,
you know, following the steps of a standard
operating procedure so that they can get those
drugs out of the blood to run on the instrument.
So most of it’s all -- once they’ve gotten the
extraction done, then it’s all automated on the
instrument.

41a
Q

And the extraction part, again, if there’s any
errors or any mistakes, I mean, that has to be
documented and you review all of that data?

A

Yes. And that’s why we have the positive and
negative controls. So if they had made an error
and spiked the incorrect level for a calibrator, for
example, then those controls would not
quantitate correctly. So that’s why we have
positive and negative control space throughout
the run.

Q

Just another quality control set into there?

A

Correct, yeah.
MR. TRAINI: I’m going to show this witness
state’s [*70] Exhibit 4, Your Honor.

THE COURT: Okay.
(Whispered conversation)
Q

Do you recognize that?

A

Yes, I do.

Q

And can you explain what that is?

A

This is a copy of the final report that was
prepared in this case.

Q

And specifically, who is the subject of this report?

A

Teresa A. Johnson

Q

Okay. And you’re looking at, you said, a final
report?

A

Correct.

Q

And can you explain who signed off on page 2 of
that report?

A

Sure. So there are two signatures on page 2. The
first is from Amanda Chandler. She was the

42a
primary analyst for this case, so she did the
majority of the extractions of that blood sample.
And then my own signature.
Q

Now when you said she did the primary, you
know, analysis, was there other individuals there
involved as well?

A

Yes.

Q

And who are those?

A

There was two tests conducted by Christie
Mitchell-Mata and one by Justin Knoy.

Q

Okay. And again, you mentioned that you kind
of have [*71] other individuals break it up,
depending on what drug they’re looking for?

A

That’s correct. So, you know, every scientist has
their batch of 40 that they’re working on. And
let’s say there’s, you know, benzodiazepines that
so-and-so only has five cases, I only have five
cases, she only has five cases. Well, if we were to
do three runs each with only five cases, we have
all the calibration, all of the controls for each one.
So that would waste a lot of resources. So we say,
okay, somebody’s going to sign up to do
benzodiazepine tests for that day and they would
pull the evidence from all of the scientists that
need it for that day and then run them all in one
run.

Q

Okay. Now when you reviewed the data, did you
review the data from all three analysts then?

A

Yes. All the data that is associated with this case
was contained in the case file, so I looked over all
of that data before I signed the report.

43a
Q

And again, you know, just to be clear, what I’ve
marked as state’s Exhibit number 4, is that an
accurate representation of the tox report that
was prepared by the Washington crime lab?

A

Yes, it is.
MR. TRAINI: Your Honor, I’d ask that 4 be
admitted into evidence. [*72]
THE COURT: With the objection already noted MS. THORRSIN-BAHRI: Yes.
THE COURT: -- I will let it in.
(Plaintiff’s Exhibit 4 admitted)
MR. TRAINI: Okay.

Q

Now let’s go through and talk a little bit about
state’s Exhibit 4. There are some things, you
know, on that front page. Can you explain what’s
there and what’s going on?

A

Sure. So the way our toxicology reports look, we
have, you know, a header with our information,
and then the agency’s information. So in this
case, the State of Alaska crime laboratory is
where we’re going to send it to. The subject’s
information and some chain of custody
information, so who submitted the sample to us,
how did it get here, what day did it get here. And
then some information about the type of sample
that was submitted. And then there’s a drug
analysis result section where we list the results
that we have found.

Q

Okay.
And there were some presumptive
positive on this one. What was it positive for?

44a
A

So the presumptive positive is from that very
first screen that we talked about that just told us
what classes of compounds were there. So the
reason we say presumptive is because we
haven’t, at that point yet, identified specifically
what it’s going to be, so we’ll further [*73]
confirm. So we had presumptive positive for
benzodiazepines and Methadone.

Q

Okay. And then you do some more testing?

A

Yes.

Q

A second screen?

A

Correct.

Q

And what was the result on that second
screening?

A

So that second screening, now this is the one on
GCMS that tells us specifically what drugs are
there, and we’re looking at those fingerprints to
tell us which drug. We found Alprazolam,
Diazepam,
Diphenhydramine,
Methadone,
Nordiazepam, Oxycodone and Tapentadol.

Q

Okay. And then you then quantitate those
amounts?

A

Correct. So after those are detected, then the
analyst can start performing or delegating the
performance of quantitation of each of those
compounds.

Q

Okay. And there’s specifically Methadone. It
lists an amount there?

A

Yes, it does.

Q

What is that amount?

A

0.44 milligrams per liter.

45a
Q

Okay. And what does the milligrams-per-liter
mean?

A

That’s the units that we use to quantitate most
drugs in our laboratory.

Q

Okay. And again, that test was conducted by -[*74]

A

This one was conducted by Christie MitchellMata.

Q

Okay. And she’s a scientist in your lab?

A

Correct.

Q

And again, you reviewed her data?

A

I did.

Q

And did you reach your own independent
conclusion, again, as to all of the data in there?

A

Yes. I accepted that result.

Q

Okay. Let’s talk a little bit about Methadone.
What is Methadone?

A

Methadone is a narcotic analgesic. So what that
means is, it does two things. Narcotic means it
relieves pain -- or sorry, I have that backwards.
Narcotic means it causes sleepiness and
sedation. Analgesic means it relieves pain. So
it’s basically going to do those two things to the
human body. So it can be prescribed either for
severe pain. It can also be prescribed for opiate
dependence. So people that have an addiction to
another opiate might be put on a Methadone
maintenance program. So this is where they’re
trying to give them Methadone in order to wean
them off of other opiates they might be taking.

46a
Q

Okay. And what does that amount .44 mean? Is
there any significance to that or what is that?

A

Well, individuals obviously have great variance
in what they’re prescribed, how long they’ve been
taking it, [*75] whether this is a new prescription
for them or not a new prescription for them. So
we can’t really say a whole lot about the level. It
is a higher level. It’s certainly not small. But
that doesn’t necessarily mean that that isn’t the
normal level for that person if they’ve been
taking it for quite some time and developed quite
a bit of tolerance to the drug.

Q

So this isn’t like alcohol where you can say .08
means something?

A

Correct.

Q

In fact, is it fair to say you have to take what you
found in this lab report and combine it with what
the officer observed?

A

Yes. I mean, we can talk about what the drugs
are and what types of effects they have on the
person, and then we can look at the signs and
symptoms that were observed and determine if
that’s consistent with what these drugs can
cause.

Q

Okay. Well, let’s talk about Methadone then.
What would the signs and symptoms be if, you
know, someone is on Methadone?

A

Primarily, it’s going to be that sleepiness and
sedation. They also are going to have constricted
pupils. So that means small pupils. That’s a side
effect of taking opiate-type medications. They
can sometimes have lower [*76] blood pressure
and pulse, and lowered body temperature, so

47a
they might have cold or clammy skin. It can also
cause itchiness, so they can be exhibiting, like,
facial itching, for example.
Q

What effects does it have upon mental state or
physical dexterity?

A

Since it does cause sedation, it is going to have
some effect on your motor control and motor
coordination, as well as thought processes.

Q

Now let’s go down to -- well, you said on thought
processes?

A

Correct.

Q

Okay. Would confusion be, you know, in line
with someone that was impaired by Methadone?

A

Yes.

Q

Okay. Let’s talk about the next substance that
was tested. It was Diphenhydramine?

A

Correct.

Q

And that also is commonly known by another
name?

A

Yes. Either Benadryl or some formulations of
Unisom.

Q

Okay. Let’s go to page 2. There’s a whole bunch
of drugs listed at the top of page 2. And again,
who tested those ones?

A

This test was performed by Amanda Chandler.

Q

Okay. And she was the primary analyst? [*77]
A Correct, yes.

Q

And what are these drugs that were detected on
page 2?

48a
A

So at the top of page 2 is the benzodiazepines
test. So when we got that initial emit positive
result, presumptive positive for the class of
benzodiazepines, then we can move and perform
this targeted screen where we’re going to look at
all the benzos we can test for and determine
which ones are there and how much are there. So
we found the same benzos that we had detected
earlier, which was Alprazolam, Diazepam and
Nordiazepam.
And then this test is more
sensitive and can detect more things than that
original basic drug screen that we did. So we also
found Clonazepam and its metabolites of an
amino Clonazepam in that test as well.

Q

And again, there is an amount listed there?

A

Yes.

Q

Okay. Now let’s talk about benzodiazepines.
You mentioned some class of drugs earlier. What
type of -- or narcotic analgesics. What are these
class of drugs characterized as?

A

Benzodiazepines are central nervous system
depressants.

Q

And in fact, what’s the most common CNS
depressant?

A

The most common that people would be familiar
with is alcohol.

Q

Would you expect these drugs to have the same
effect as [*78] alcohol?

A

Yes. They’re going to have very much the same
types of effects on a person that alcohol would.

Q

Let’s talk about Alprazolam specifically. What
are the effects that you associate with that?

49a
A

Again, just like the Methadone, since it’s a
central nervous system depressant, that means
it’s going to slow down all of the processes in your
body. So you’re also going to get that lower pulse
rate, blood pressure, body temperature. So it’s
going to cause sleepiness and sedation as well,
again depending on the person’s experience with
that drug and how much they’ve ingested. So
motor control is going to be affected, reaction
time is going to be affected. It’s going to take
longer to react to something than somebody
normally would.

Q

Would someone who was under the influence of
these substances appear to an individual to be
intoxicated or drunk?

A

It depends on the individual and how
experienced they are. Especially when you start
combining the medications, that’s when you get
more propensity to be impaired by these
compounds.

Q

Okay. If an officer testified that, you know,
someone was failing balance tests and, you know,
had poor dexterity, would that be consistent with
the effect of these drugs? [*79]

A

Yes, it would be.

Q

If someone was confused, unable to remember
why they’re at a store, would that be consistent
with these drugs?

A

Yes, it could be.

Q

Okay. And again, Alprazolam, Clonazepam,
Diazepam, Nordiazepam, you know, I can go
through and ask you individually the effects of

50a
these drugs. Are they all going to be basically the
same?
A

Yes. They’re all in that central nervous system
depressant class, so they’re all going to have the
same type of effect on people.

Q

Okay. And you mentioned kind of an additive or
multiple effect?

A

Sure.
I mean, whenever you ingest one
medication and it has an effect on you, then you
ingest another one and it’s having an effect as
well, and then another one and it’s having an
effect as well. So as you start to add them all
together, the grand total of the effects is larger
than any of the individual parts.

Q

Okay. Next you go down and there’s a test for
opiates?

A

Correct.

Q

And what was the result on that?

A

Oxycodone, 0.049 milligrams per liter.

Q

And what is Oxycodone?

A

Oxycodone is a prescription opiate. So this is in
the [*80] same class as Methadone, a narcotic
analgesic as well, so it’s going to relieve pain and
also cause sleepiness and sedation.

Q

And again, is there a additive or multiple effect
between this and all the other drugs?

A

Yes. Since the primary effect on a person’s
mental status and coordination is going to be
that sleepiness, sedation and lack of motor
control, these are going to add up in that regard.

51a
Q

Now specifically, you mentioned that Methadone
is an opiate. And what’s the effect of, you know,
Methadone and the Oxy?

A

We can’t say specifically, but it is going to be
additives. So any of the individual drugs is
having an effect on the person, and the more
drugs you’re going to ingest the greater the
overall effect.

Q

Now last, you said Tapentadol or --

A

Tapentadol.

Q

Tapentadol.

A

Yeah.

Q

Okay. What is that drug?

A

That’s a newer prescription opioid that was just
approved by the FDA in 2009. So it’s also going
to be a narcotic analgesic, so the same type of
effects as the Oxycodone and the Methadone.
[*81]

Q

Now that one, you don’t have an amount listed.

A

That’s correct.

Q

Why is that?

A

This is not a drug that we had seen in our
laboratory before. I don’t think there’s a whole
lot of prescriptions that are being written by
physicians yet, so we had to order a standard so
that we could verify that this is what that
compound is. But in our laboratory, when we
perform any kind of quantitative testing where
we’re determining how much, we go through a
full method validation. So this is usually, you
know, half a year long worth of testing this
method to make sure that it’s, you know, rugged

52a
and precise and accurate. So since this was a
new drug for us, we had not done any method
validation to show we can accurately quantitate
it, so we just reported it as positive. We can
verify that it is present, but we didn’t have a
validated method to determine how much.
Q

Okay. Now if drugs are present in someone’s
system, are they having an effect on them?

A

Yes. It’s just a degree of effect that’s going to
vary based on how much they’ve ingested and
what their experience is with the compounds.

Q

Now does it matter if a drug is a prescription
drug or not? [*82]

A

No. I mean, all prescription medications that are
CNS depressants or narcotic analgesics are
having an effect on the person. It just depends
on the degree of effect.

Q

Okay. And to look at the degree of effect, where
would we find that information at?

A

The contact with the individual, how they
behaved, how their speech was, what their
driving behavior was. Often field sobriety tests
are performed so the officer can evaluate their
motor control and their mental functions.
MR. TRAINI: Your Honor, at this point I would
like to admit state’s Exhibit 4 and publish that to
the jury.
THE COURT: I think it was admitted, so you can
publish it to the jury.

Q

So just in summary, how many different narcotic
analgesics did you find in the blood?

A

Three.

53a
Q

And how many CNS depressants?

A

You should have asked me that before you took
away the report.

Q

Let’s see. If I -- I have a copy, if I could show you.

A

That would be great. Thank you. I didn’t not
count prior. Six.

Q

And are you aware if these substances are
controlled?

A

I believe all of them are scheduled in some
fashion with the exception of Diphenhydramine.
[*83]

Q

Or Benadryl?

A

Yes.

Q

Okay.
MR. TRAINI: Your Honor, I have no further
questions of this witness.
*

*

*

54a
CROSS EXAMINATION
BY MS. THORRSIN-BAHRI:
Q

Good morning, Ms. Noble.

A

Good morning.

Q

I would like to start -- you talked a little bit about
your degree in biochemistry. You talked about
some classes you’ve taken on toxicology.

A

Yes. I have taken classes in school, but also
trainings that we took as part of my employment.

Q

But someone could obtain a separate degree in
toxicology; correct?

A

You can, yes.

Q

Okay. And toxicology is sort of dealing with the
adverse effects of drugs in the body?

A

That’s correct.

Q

Okay. How about pharmacology? Have you
taken any classes in pharmacology? [*84]

A

I didn’t take any classes specifically on
pharmacology in college, but a lot of the
knowledge that we obtain as part of our job is
learning about pharmacology, which is what
happens to a drug once it enters the body, how is
it metabolized, how is it eliminated from the
body.

Q

Okay. And that’s a separate degree though?
Somebody could obtain --

A

You could --

Q

-- a degree in pharmacology?

A

You could. But if you were to get one in
toxicology, you’re definitely going to have to take

55a
pharmacology courses. So there’s some crossover
there.
Q

Okay. But just to be clear, you didn’t -- you
haven’t obtained your degree in pharmacology or
toxicology?

A

No. Mine was in biochemistry.

Q

Okay.

A

But there is some crossover with that as well.

Q

Okay. I want to ask you how -- do you know the
date that the sample was received in your lab?

A

June 15th of this year.

Q

Okay. And who -- how was it delivered to your
lab?

A

It was delivered via FedEx.

Q

Okay. Who received the sample?

A

I could look at my case file. That would have that
information. [*85]

Q

Okay. And you can do that.

A

Tony Mast was the property and evidence
custodian at that time.

Q

And is he the individual that is required to label
the sample?

A

Yes. Himself or one of the property and evidence
custodians. So one might be going downstairs
and picking up evidence, so they will keep track
of -- on the exterior of the package, they initial
and date that they received it. But maybe later,
another property and evidence custodian might
open the package. So the form that they sign is
inside the package, so we can’t sign it until it’s
been opened.

56a
Q

Okay. I’m sorry. We don’t know who did that in
this case. Is that accurate?

A

Correct.

Q

Okay. And just looking at the -- there’s some
notes by your lab where it says, you know, if the
evidence was sealed or not.

A

Uh-huh (affirmative).

Q

Here, it’s checked no. Can you tell us what that
means?

A

That looks to me as an error. So there’s evidence
sealed, a yes-or-no check box, but then there’s
also a box sealed, a bag sealed, a tube sealed,
check boxes. And then we notate how they were
sealed. So they had checked that the [*86] bag
was sealed, the tubes were sealed, and ET, for
evidence tape. So I think the no was an error on
the PEC’s part.

Q

Okay. Or it could be that the others were errors
and that that is correct?

A

We received so many samples that I’m guessing
it was a quick check on the wrong side.

Q

Okay. And who actually checked this? Do you -who filled out this form and --

A

Tony Mast.

Q

Okay. So we don’t know for sure what this
means? I mean, it says evidence not sealed.

A

That is what it says, yes.

Q

Okay. So from there, as far as labeling, it is
opened.
It’s opened, the sample’s opened;
correct?

A

Correct.

57a
Q

Or the packaging. Where is it stored at that
point once it is lab -- correctly labeled?

A

We have an evidence vault. So inside this vault,
we have five refrigerators. And the only people
that have access to the vault are the property and
evidence custodians and the supervisors and the
laboratory manager.
So we have in these
refrigerators, we have large metal trays that
have test tubes racks in them.

Q

Uh-huh. [*87]

A

So the samples are put in test tube racks and
stored in the refrigerator if they’re not being
tested.

Q

Okay. Also on this form, there’s a note that says
-- MI not on tube. Can you tell me what that
means?

A

Yeah. The middle initial -- so the PEC is also
looking at the request form and comparing it to
what’s written on the tubes, and making any
notation of anything that differs between the
two.

Q

Okay. So how does the -- how, then, is the blood
sent to the analyst for testing? Who picks it up
and brings it to the analyst?

A

So as the samples are being opened -- they are
just in numerical order, so there’s no manner in
which the samples are assigned to any given
analyst. It’s just sequential -- here’s your 40,
here’s the next 40. So they would be usually in
two test tube racks. We typically get two samples
from most agencies, one from Alaska, so it’s
usually more than one rack can hold. And then
once they’ve all been labeled and all the

58a
paperwork are in case files that just is a request
form and a case file, the analyst is notified their
set is ready for pick-up. And then we have a
software program that we do all of our
transactions in. So the PEC puts all of the
samples in a container, which is just essentially
a grouping of evidence items, in the software
program. And then the [*88] analyst would
check it out from the PEC. So they would each
put in their PIN number to indicate that they are
doing this transaction, and then all of those
evidence tubes that were in the container would
be transferred to the analyst. And then they hit
apply and it records that in the chain of custody.
Q

Okay. And do we have that -- is that part of the
bench notes in this case as to when it was
checked out by the analyst?

A

No. It’s not typically part of our standard case
file. We can print it out if it’s requested, but it
isn’t something that we just keep in the case file.

Q

Okay. So we don’t -- do you know what time it
was checked out by each analyst in this case or
on what day?

A

I don’t know specifically what day she checked it
out. The first test was performed on the 17th and
the sample was received on the 15th, so she
checked it out somewhere between then.

Q

Okay. And the other -- some of the other testing
was done on different days?

A

Correct.

Q

Okay. It looks like one was done on the 23rd.

A

Yes.

59a
Q

And do you know when that sample was checked
out by the analyst? [*89] A No, I don’t have the
electronic chain of custody.

Q

Okay. A It wasn’t requested, so I didn’t print
that out.

Q

Okay. You talked a lot about sort of preparing
the sample for testing. You mentioned adding
solvents. What types of solvents are added to the
blood? If I understood that correctly, adding
solvents --

A

It depends on the test. All of the extractions are
different, so it just depends on which one we’re
looking at. Some of them are what we call liquidliquid, where you would add a solvent and they’re
put on a tube rotator so the liquids can mix.
Some of them are what we call solid phase, so we
have these little cartridges that have some filters
in them and the samples are run through these
cartridges. So all of them are a little bit different.

Q

Okay. So is it the analyst who’s responsible for
doing that part?

A

Yes. So in this case, either Amanda, Christie or
Justin.

Q

Okay. So Justin -- it looks like Justin Knoy did
the testing for Benadryl?

A

Correct.

Q

So he would have been responsible for doing that
first --

A

Yes.

Q

-- process?

A

Correct. [*90]

60a
Q

Okay. And do you know -- I mean, did he add the
solvents or run it through -- how do you know
that that was done?

A

So after the extraction is performed, that’s when
the -- it’s then ran on the instrument and then
data is produced that is then printed out. So
what I’m looking at is the printout of the data
and there’s things that we’re looking at on the
data printouts to verify that the run was
successful. So we have those standard operating
procedures, so we’re looking at the negative
controls, positive controls, calibration curves
have to meet criteria, et cetera.

Q

Okay. So just to be clear, you don’t watch them
perform these tests though?

A

That’s correct.

Q

Okay. And exactly how many individual steps
are done by the analysts? We have the solvents.
Is there a washing of the sample that is done?

A

They are all different.

Q

Okay.

A

So yeah, the solid phase one has multiple wash
steps. Some of them have a back extraction, so
we move it from a base environment to an acid
environment, back to a base. So they’re all -- I
mean, all chemical extractions that are a little bit
different, just --

Q

Uh-huh. [*91]

A

-- depending on the chemical properties of the
molecules we’re trying to extract.

61a
Q

Okay. And as far as that process being done, you
believe that if there were errors in that process,
it would have been evident in the graphs?

A

Yes.

Q

Okay. As far as making sure -- you testified that
each analyst sort of takes one class of drugs for
the day. Is that accurate?

A

Sometimes they might do more than one in a day.
Some extractions are shorter than others, so they
might be able to maybe, you know, do a
Methadone run in the morning and maybe their
basic drug screen in the afternoon.

Q

Okay. So as far as making sure that this test is
of this person’s blood, how would you know from
the graphs that the analysts matched the sample
to the correct name?

A

So we have -- I mentioned, I think, before, bar
codes on the tubes. So when the analyst pulls the
evidence to perform a certain test, they’re
scanning the bar codes of those tubes to indicate
which tubes are being pulled and tested. And
then those sample names -- so not the person’s
name, but the case number that we assign in our
laboratory, are entered into a sequence on the
instrument. So when the batch review process is
happening, we’re comparing the scanned bar
codes next to the work list and [*92] making sure
that those are in the same order. We’re also
using -- we test every sample. Every drug is
detected twice in a sample -- so once to detect it’s
there, once to quantitate it.

62a
Q

So as far as making sure the bar codes, though,
match with the samples, who is responsible for
that?

A

The analyst would be doing that when they’re
loading them on the instrument. And then also,
the batch reviewer would be checking that on the
printouts again when the date is reviewed.

Q

And who is the batch reviewer? Who was the
batch reviewer?

A

Well, there’s --

Q

I mean, is there --

A

-- multiple batches --

Q

Okay.

A

-- associated with -- yeah, each -- each test. So
each test we talked about would have a reviewer
--

Q

Okay. So --

A

-- of the batch.

Q

-- do you receive those -- I mean, are you involved
in that process?

A

Yes.

Q

Okay. So were you there when this testing was
done to make sure that everything was matched
up correctly? [*93]

A

I did not watch any analyst perform any of these
tests.

Q

Okay. And what is the purpose of washing or
cleaning the sample that you described? I mean,
what exactly is the purpose of that?

63a
A

So the extrac -- the purpose of the extraction is so
we can get a clean extract of just the drugs that
we’re going to put on the instrument. So we don’t
want any of the other constituents that are in
bloods. We don’t want any of the proteins or
lipids or fats, you know, pieces of blood cells or
anything to run through our instruments that
would, you know, gunk them up. So we’ve got to
go through a chemical extraction process to just
pull out the compounds of interest and put them
into a clean solvent. So that’s the purpose, is so
that we can run these on an instrument.

Q

Okay. And multiple samples were being tested
at the same time. Is that correct?

A

Correct.

Q

Okay. But you’d agree with me that unless you
actually observe the testing, you don’t know for
sure if each protocol was followed in the testing
process?

A

I can’t say that they -- like let’s say if it says
rotate for five minutes, that they didn’t let it
rotate for six minutes or something like that. We
can look at the -- the data printouts and make
sure that all of our criteria are [*94] met so that
nothing was done that was, you know, fatal to the
run or caused it not to meet our criteria. But
you’re right, I didn’t watch them do it. We can
only look at the data that’s printed out.

Q

Okay. And as far as -- you mentioned that a
supervisor has to initial every page as well as the
analyst. Is that correct?

A

Yes, it is.

64a
Q

Is -- I’m looking at some of the pages. Does the
supervi -- there’s some numbers in addition to
just one signature. Is that -- was does that mean?

A

Can you point me to a page? I’d like to --

Q

Yeah.

MS. THORRSIN-BAHRI: And if I may approach.
Q

I can --

T

HE COURT: You may.

A

Sure.

Q

-- show you an example.

A

Oh, sure. I can explain that.

Q

Okay.

A

Yeah. So in addition to having -- so two things
have to happen as part of administration of our
case file. The case number that we assign has to
be on every page that ends up in the case file.

Q

Okay. [*95]

A

And then also, with any given batch that the
analyst runs -- so let’s say for that instance it’s a
basic drug screen. They -- there is a batch
number that’s associated with that batch that is
associated to that date. So that batch number
has to be on every page. So we would do the last
two digits of the year, so 16 and then, you know
06 --

Q

Uh-huh.

A

-- 02, for example, if it was, like, the 2nd of June.
So that batch ID has to be on every piece of paper
that’s submitted when that batch gets reviewed.
So that’s to identify if that piece of paper fell out,
we would know exactly where it goes.

65a
Q

Where it went back?

A

Yeah.

Q

Okay. I don’t see another set of initials, though,
you know, on each page. Can you explain to me
why that wasn’t done in this case?

A

So if it’s a secured piece of data, so a stapled piece
of data that’s stapled together, the reviewer -- so
not the analyst but the reviewer, only has to
initial and date the front page of that data that’s
secured together.

Q

Okay. Looking at the levels -- and do you have a
copy of the report, the lab report, in --

A

Yes. [*96]

Q

-- front of you? Okay, great. You’re familiar with
Winek’s drug and alcohol blood level data?

A

I’m familiar with it, yes.

Q

Okay. Just looking -- I guess we’ll start with -well, let’s -- so there are therapeutic levels and
then toxic levels and lethal levels that that lays
out?

A

Yes. And in that table, there’s a pretty large
degree of overlap between those three, yeah.

Q

Okay. I guess if we start with the -- start with
Alprazolam -- and I think we have to do a little
bit of math. It’s easy math; right? I think we’re
just moving the decimal point to -- as your lab
reports it in milligrams per liter and I think
Winek puts it in milligrams percentage.

A

I haven’t looked at Winek’s. Honestly, we don’t
use it --

Q

Okay.

66a
A

-- in our laboratory. So I’m familiar with it, but
--

Q

Okay.

A

-- we don’t use it, typically.

Q

And I can -- if you feel like you want to look at it
today, I have a copy here. As far as the level of
Alprazolam that was in the blood that was
tested, that was within a therapeutic range;
correct?

A

I would say yes, I mean, it can be that that is the
level that a person is prescribed. It could also be
too high [*97] for they’re prescribed. We just
don’t know.

Q

Okay. And the Methadone, we talked a litt -- you
talked with Mr. Traini about that. That is also
within the therapeutic range for people?

A

Typically for maybe closer to the Methadone
maintenance program, larger does, yes, it would
be in that range.

Q

Okay. And we talked a little bit -- you talked a
little bit about a person’s tolerance. Can you tell
me how that works as far as the effects of drugs
and how long a person has been taking --

A

Sure. So when you first take a drug for the first
time, you’ve never taken it before, you’re going to
have the maximum effect that this drug is going
to cause on your body. And then each time you
introduce that drug in the same amount at a
regular interval, there will be a lessened
response as time goes on if you keep that dose the
same and you always are taking it regularly. So
that wouldn’t be the same for something that you
just take, you know, as needed. So --

67a
Q

So if someone’s been taking it for, say, 10 years,
that would be different than somebody that has
just started taking it perhaps?

A

Yes. If you’re considering that drug alone --

Q

Uh-huh.

A

-- and not in combination with others, then yes,
you can [*98] develop tolerance to some of the
effects. And then there’s other effects that you,
you know, can’t become tolerant to.

Q

And you would agree that two individuals may
also have different -- may experience different
effects just based on their own unique chemistry?

A

Yes.

Q

Okay. And that’s true of all of the medications in
this case?

A

Yes.

Q

Okay. So let’s -- going back to the numbers. We
talked about Alprazolam and I think we talked
about Methadone. Diazepam, that’s also within
the therapeutic range --

A

Yes.

Q

-- for a person? Okay. And moving next to the
Oxycodone. It’s also within the therapeutic
range; correct?

A

It can be. It’s on the higher side, but it could
potentially be a therapeutic range for a person.

Q

Okay. So why not list the therapeutic range as
.001 to .01? We have here .0049, if it’s converted.
So that is well within the therapeutic range.

A

Which is why, I mean, we don’t typically use that
table. I think the data that it was pulled from

68a
was kind of a large pool of data, so there’s a lot of
overlap. So they might say this is therapeutic,
but then you look at the [*99] toxic and it starts
below where the therapeutic was. And then the
fatal starts before -- so it doesn’t offer clear -Q

There is some --

A

-- information.

Q

-- overlap, yes.

A

Yes.

Q

But this is used by people in court, I mean, you’ve
heard it used in court before, I’m assuming.

A

Mostly, it’s actually the medical examiners that
I find that are most interested in it because
they’re looking at that toxic and fatal.

Q

Okay. So medical examiners, in your experience,
rely on this?

A

Yes.

Q

Okay. And the Diphenhydramine, which you
described as -- which is Benadryl?

A

Yes.

Q

That’s also with the therapeutic range?

A

Yes, it is.

Q

Okay. And Nordiazepam, that’s a metabolite of
Diazepam?

A

It is. It can also be prescribed and taken on its
own.

Q

Okay.

A

But it is a metabolite of Diazepam.

Q

And that is also within the therapeutic range?
[*100]

69a
A

Yes.

Q

Okay. Based on these levels, can you say with
any degree of medical certainty that these
medications were impairing --

A

Of a particular person?

Q

Yes.

A

I would say it’s probably likely with the
combination of all of them all together, but I
would need more information about the specific
individual and their behavior to make that
determination.

Q

Including how long they had been on the
medication?

A

Not so much that as just how were they behaving
at that time.

Q

Okay.
MS. THORRSIN-BAHRI: I have no other
questions. Thank you.
*

*

*

70a
REDIRECT EXAMINATION
BY MR. TRAINI:
Q

Does a therapeutic level mean that a drug’s not
working?

A

No.

Q

Okay. For example, if I get my hand chopped off
and I go [*101] to the doctor, they’re going to
prescribe some type of pain pill, I would assume.

A

I should hope so, yes.

Q

And if it’s, you know, my hand’s bleeding, you
know, I’m missing my hand, it’s going to be a
pretty serious pain pill?

A

Yes.

Q

If I’m on a therapeutic dose, I’m going to want it
to do what?

A

Relieve the pain.

Q

Okay. Does that mean that I shouldn’t be
driving?

A

Probably. So because those drugs are all -they’re relieving pain, but they are also causing
the narcotic action, there’s a lot of overlap. So
there’s side effects that are associated with those
drugs. So in order to get to -- especially if a
person is tolerant, you have to keep taking more
and more to get the desired pain relief, but then
you are also taking more and more, which causes
more and more impairment. So that’s another
hurdle that you have to get over as far as
becoming tolerant to that amount.

Q

So therapeutic in the case of what we’re talking
about today is meaningless?

71a
A

I don’t think -MS. THORRSIN-BAHRI: And Your Honor, I
object. [*102]

A -- that it’s meaningless.
MS. THORRSIN-BAHRI: Calls for speculation.
MR. TRAINI: Well -THE COURT: Mr. Traini -MR. TRAINI: -- let me rephrase that.
THE COURT: -- lay a better foundation.
MR. TRAINI: Okay.
Q

What is the effect of therapeutic levels, then, as
far as your testimony today?

A

I guess just to give us an idea of, you know,
whether a person is potentially taking the
medication as prescribed or whether they could
be abusing the medication. And I can’t really say
in this case.

Q

And is there a therapeutic level for taking -- what
did you say, six CNS depressants and three
narcotic analgesics?

A

Well, I mean, they each have their own level,
obviously, that they are at, so it’s just more
important to look at the signs and symptoms that
the officer observed to determine whether it
seems likely that the combination of all those
drugs together was affecting that person at the
time.

Q

And just to be clear, a therapeutic level does not
mean that the side effects are not there?

A

That’s correct. [*103]

72a
Q

And last, there were some questions about, you
now, the testing the blood and who did what
steps. Again, how many individual samples does
each lab analyst get a year?

A

Between 12 and 13 hundred this year, I think,
we’ll be.

Q

Okay. When you -- you did an analyst point at
one [sic] in your career; correct?

A

Yes.

Q

Now with that, did you remember every sample
that you tested?

A

No, I would not say that I would remember
specifically each sample.

Q

Why is that?

A

Because there are so many.

Q

Okay. Is that part of the basis of the quality
controls that you have set up?

A

Yes.

Q

And is there anything in your review of the file,
the data, any information at all, that indicates
that this test was not conducted properly?

A

No. I would not sign the report if I found
anything to that effect.

Q

Okay. So in your opinion, this is a correct
analysis of her blood?

A

Yes.
MR. TRAINI: I have no further questions.
*

*

*

73a
[*142] TRIAL BY JURY, CONTINUED
(EXCERPT); VERDICT
BEFORE THE HONORABLE GREGORY HEATH
SUPERIOR COURT JUDGE
Palmer, Alaska
September 21, 2016
8:39 a.m.
*

*

*

[DEFENDANT’S MOTION FOR
JUDGMENT OF ACQUITTAL]
[*205] MS. THORRSIN-BAHRI: Your Honor,
before we do that, I would like to move for a judgment
of acquittal. I would have [*206] done that after the
state’s case, but we should have went right into the
defense’s case. Specifically here, the state -- I mean,
we heard from the crime lab expert, but really in the
end she couldn’t tell us if the blood that was tested
was Ms. Johnson’s blood. I mean, and that really
what -- that’s really what our objection to her
testimony was, I mean, and that’s -THE COURT: Let me see the exhibits.
MS. THORRSIN-BAHRI: That’s the -- that
foundation just wasn’t laid that, you know, she talked
about bar codes, imaging bar codes, but she didn’t
have any of the bar code information. She couldn’t,
even in the end, tell us that it was definitely Ms.
Johnson’s blood, other than she believes it was and
that the bar codes were matched. So for that reason,
the defense moves for a judgment of acquittal, based
on the fact that the state hasn’t proven that this was
her blood.

74a
THE COURT: Mr. Traini.
MR. TRAINI: Under Lyon, the court has to view
this in favor -- in the light most favorable to the state,
Your Honor. That being said, it seems more what the
defense is actually arguing is chain-of-custody type
issues. Chain of custody doesn’t deal with admission
of evidence or anything like that. It goes to weight
and it’s a separate issue, Your Honor. Chain of
custody does not deal with the admission of the
evidence. Again, that’s something the jury can
consider. Regardless, we did hear testimony from the
crime lab indicating, you know, [*207] this was the
blood of Teresa Johnson. And the officer testified, you
know, the case number on that report matched his
police case number. He’s the one that sent the blood.
And again, you know, the details behind allowing Ms.
Noble to testify, you know, contained in Judge Smith’s
order and your order, it all goes back to that the
individuals who test blood anyway, Your Honor, have
no individual recollection when they get 13,000
samples of blood a year. And so she was able to testify
that everything matched, you know, this, in her
opinion, was the correct blood that was tested and
here’s the results of it.
THE COURT: Well, I’m going to make the
following finding. It’s a fairly high standard for a
judgment of acquittal. I have to look at the light most
favorable to the state. I don’t recall her saying the
name Teresa A. Johnson, but we did admit her report
and it is on the report, along with the case number.
And at this point in time, based upon that, I will deny
the motion. You’re free to argue that in your closing
argument, though, Ms. Thorrsin-Bahri. Okay. Let’s
see.

75a
*

*

*

[STATE’S CLOSING ARGUMENT]
[*226] THE COURT: Okay. Mr. Traini, you may
do your closing argument.
MR. TRAINI: Thank you, Your Honor. Ladies and
gentlemen, at the beginning of this trial, in opening
statement, I told you this case was going to be very
straightforward. The evidence has bore that out and
I want to draw your attention to some particular parts
of the element, and then I’m going to go over some of
the jury instructions.
*

*

*

[*227] Next we heard from Lisa Noble. And again,
at the onset of the case I told you that the State of
Alaska has a contract with Washington to
independently test the blood. We don’t have those
facilities or the equipment in Alaska, so we contract
through Washington. And you heard from Lisa Noble.
She is a supervisor at the crime lab and her job is to,
you know, supervise the various analysts. And she
explained what [*228] happens, how the blood comes
in, it’s assigned and broken up to different
individuals. And, you know, they do the testing.
When I say they do the testing, it’s a little bit
misleading because there is no microscope. It’s not
like the analysts are actually, you know, looking at the
blood, you know, under the lab. They don’t do that.
The reason is, instruments do all that. And she
described the various instruments that they use. But
the instruments produce, you know, this data. And
Amanda Chandler reviewed part of the data -- in fact,
all of the data, including the data that the other two

76a
individuals tested, Christie Mitchell-Mata,
Amanda Chandler made her findings.

and

But what’s more important in this case is that Lisa
Noble reviewed those findings. She independently
reviewed those findings and that data and reached
her own conclusion as to what was in the defendant’s
blood. And she testified as to, you know, what those
substances were. And again, we heard Alprazolam, a
CNS depressant, a central nervous system
depressant. We heard Diazepam, also a central
nervous system suppressant. Methadone, a narcotic
analgesic.
Nordiazepam, a CNS depressant.
Oxycodone, a narcotic analgesic. Tapentadol, again,
another narcotic, an opiate.
And when asked, she indicated there was
numerous CNS depressants, and that’s consistent
with what the officers observed. A CNS depressant
includes alcohol. And so someone under the influence
of these drugs are going to act like they’re under the
influence of alcohol. And that’s exactly what the
witnesses observed in this case, the confusion, the
staggering, the poor balance, unable to do simple
tasks such as unlock the door right away, fumbling
around, hitting windows, you know, several seconds
just to figure out how to open a door or unlock a door.
Now I don’t know what the defense is going to
argue. They may argue that, well, we didn’t bring up,
you know, Justin from the crime lab, we didn’t bring
up Amanda, we didn’t bring up Christie MitchellMata. And that’s correct, we didn’t bring them up for,
you know, cost reasons and things like that. We bring
up the supervisor that reviewed all of the data and she
was able to testify that if there were any mistakes and

77a
errors, she would have caught it and it would have
been noted, and there was none.
And I assume that defense is going to argue that’s
because that’s their job and what they’re trying to do
is to kind of distract the jury from the evidence in this
case that there was so many drugs in the defendant’s
blood -- so many impairing drugs. And Lisa Noble
testified as to Alprazolam, you know, the confusion.
And when I talk about all these CNS depressants,
they all kind of have the same effect. They have that
same effect of alcohol, the depression, the confusion,
the poor dexterity. [*230]
And again, she was on multiple CNS depressants.
And it is true that Diazepam and Nordiazepam could
be metabolites, so they could have been Alprazolam
breaking down into another drug, which breaks down
into another drug. That being said, that doesn’t
explain the Clonazepam, which was also found in her
blood, a separate drug in and of itself. So we know
that there was at least four CNS depressants right
there and at least two of those are completely separate
and not metabolites.
So she had at least two independent CNS
depressants in her system.
And then going to the Methadone. We heard that
that amount was a little bit more high. And again, I
don’t really talk about amounts because amounts
don’t tell us a lot. And there was some discussion
about therapeutic doses. And again, why that’s not
relevant is because if you’re taking, for example, sleep
medication, something that’s going to make you
drowsy, you expect a therapeutic level to have some
effect on you. It’s going to make you drowsy. That’s
why you’re taking the medication.

78a
So therapeutic dosage is kind of misleading. If
you’re taking sleep medication at the therapeutic
level, that’s going to make you go to sleep. It doesn’t
mean that you’re not going to be impaired while you’re
driving because you’re on medicine that’s supposed to
make you go to sleep. And so therapeutic dosage,
again, has no real meaning. She testified that’s more
[*231] for, you know, ME’s, and they look at toxic
levels and fatalities -- just nothing that applies in this
case.
So, you know, again, I would just caution the jury,
that’s not really relevant as to the levels in this case.
What’s more important is the observations, and that’s
what Lisa Noble said, the observations are what you
have to look at. Again, finding the drugs is one half of
the equation. We found these substances, now let’s
take what we found and look and see if it’s consistent
with what the officer observed -- and not only what
the officer observed, but what Mr. Avery observed as
well.
And I’m going to go back to the Methadone a little
bit. She talked about how that level’s a little bit
higher, but what it’s used for, treating opiate issues -however, what’s concerning is we found the
Methadone in the blood, but we also found opiates
even beyond that. We found the Oxycodone. We found
the Tapentadol. Again -- so she has this opiate
medication or drug in her system, Methadone, which
again is impairing. But if we even move beyond that,
we still found additional opiates in her system.
And Lisa Noble was, you know -- it’s hard for an
analyst to say just looking at the numbers whether
someone’s impaired. It’s hard to do because, you
know, it’s only one-half of the equation. But when

79a
asked about that, she said yes, there is a cumulative
effect. So not only are we talking all of these
individual drugs, but we’re talking stacking those
individual [*232] drugs, multiple drugs all impairing
have an additive effect. And again, that’s consistent
with what we heard, the testimony from, you know,
Mr. Avery, Donovan Avery, that confusion.
*

*

*

[DEFENDANT’S CLOSING ARGUMENT]
[*238] THE COURT: Ms. Thorrsin-Bahri.
MS. THORRSIN-BAHRI: Yes, Your Honor. Thank
you. Good morning, everybody.
*

*

*

[*242] I want to talk a little bit about Ms. Noble
and her testimony.
The state calls is [sic] a
distraction, but I think it’s important to consider that
the analyst that came in and actually tested the blood
were not here. And when I -- and what is not a
distraction is that the report states that the evidence
wasn’t sealed. You know, we’re talking about the
government. We’re talking about the State of Alaska.
We’re talking about the government. And, you know,
and Ms. Noble was supposed to have looked at each
page, but that seemed to be a surprise to her.
You know, and yeah, that is a problem for our
government to, you know, be so sloppy in their work.
I don’t -- that’s not a distraction, in my book. She -Ms. Noble used a lot of the words, you know, could be,
might be, maybe even probably impairing. You know,
but -- even probably is not proof beyond a reasonable
doubt. And again, not just impairing, but also not be

80a
able to drive a vehicle with the care of an ordinary
person.
You know, we heard about tolerance and, you
know, if -- I asked her if, you know, having -- if you’ve
taken these medications for, you know, a period of 10
years, for example, [*243] would a person develop a
tolerance. And, you know, you can look back at her
testimony on that, and the answer was yes. So we
don’t know what level of tolerance, you know, Ms.
Johnson has for the medications that were prescribed
to her. What Ms. Noble did tell us was that they were
all therapeutic doses, which means that they were
taken sort of -- it looks like they were taken according
to doctor’s recommendations. We just -- we don’t have
all of that information.
And really, in the end, we don’t know what
behavior or whether to, you know, ascribe her
behavior to her kind of wacky personality or to her
various medical conditions. You know, we have the
late-stage hepatitis-C, the rod, the pins, the
hypoglycemia. And, you know, Benadryl was in her
blood. Benadryl, you know, you guys probably have
some experience with Benadryl over the counter. It’s
not a controlled substance. And it’s probably a
substance that somebody doesn’t take on a regular
basis as compared to medications prescribed by a
doctor.
So, you know, and the officer told us a little bit, but
he didn’t -- he couldn’t -- or he said that he doesn’t
know all the effects of Benadryl, but, you know, you
may have that experience. But again, it’s not a
controlled substance. And so if you -- if there is a
possibility that it was, you know, Benadryl alone that
was causing whatever, or just her mental health

81a
issues or her medical issues, that’s not proof beyond a
reasonable doubt. They have to show that it was a
controlled substance.
*

*

*

[STATE’S REBUTTAL ARGUMENT]
[*247] THE COURT: Go ahead, Mr. Traini, brief
rebuttal.
MR. TRAINI: Thank you, ladies and gentlemen. I
want to respond to a few points.
*

*

*

[*252] MR. TRAINI: So this idea that, you know,
the DRE report, we have it in this case -- but what we
have is Officer Lopez, he went, he applied for a search
warrant and got the search warrant for the blood in
this case. And that is the evidence in this case. That’s
how we show impairment of a controlled substance.
We get the blood and we have the blood tested. That
is the evidence. And that is state’s Exhibit 4 that talks
about
Alprazolam,
Clonazepam,
Diazepam,
Nordiazepam, Methadone, Oxycodone, Tapentadol.
Again, a long list of drugs, all of which have impairing
side effects, all of which the defendant had in her
blood on May 28th, 2016 when she was driving.

